  GOVERNMENT PERFORMANCE AND RESULTS ACT GOALS:
       SURGE SEALIFT AND FORCES SUPPORTED BY
        LAND- AND SEA-BASED PRE-POSITIONING


Report No. D-2001-128                      May 23, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Information and Copies


  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.

  Suggestions for Audits

  To suggest ideas for or to request audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
GPRA                 Government Performance and Results Act
LMSR                 Large, Medium-Speed, Roll-On/Roll-Off
QDR                  Quadrennial Defense Review
                         FY 2000 Government Performance and Results Act
                                Surge Sealift Performance Measure
                                      (in million square feet)
           10

               8

               6
                             8.7
               4
                                                      8.4                     8.4
               2

               0
                            Goal               DoD Reported                  Actual
                                               Performance



                        FY 2000 Government Performance and Results Act
                          Pre-Positioned Equipment Performance Measure
                       (in number of brigades or Marine Expeditionary Forces)
          12


          9                  4*                       4*                       4*


          6

                              7                        7                        7
          3

           0
                           Goal                DoD Reported                  Actual
                                               Performance

                                     Army                     Marine Corps

*The draft GPRA Performance Report for FY 2000 shows “partial” for the land-based portion because
material is pre-positioned only for the lead elements of a Marine Expeditionary Force.
                       Office of the Inspector General, DoD
Report No. D-2001-128
  (Project No. D2000LH-0143.002)                                       May 23, 2001


             Government Performance and Results Act Goals:
                 Surge Sealift and Forces Supported by
                  Land- and Sea-Based Pre-Positioning

                                   Executive Summary

Introduction. The Government Performance and Results Act (GPRA) of 1993, Public
Law 103-62, was designed to improve Government-wide program effectiveness,
Government accountability, and, ultimately, public confidence by requiring agencies to
identify measurable annual performance goals, against which actual achievements can
be compared.

This report is one in a series of reports resulting from our audits of GPRA goals. This
report discusses the FY 2000 DoD GPRA Performance Measures 1.3.2, “Surge
Sealift,” and 1.3.3, “Forces Supported by Land- and Sea-Based Pre-Positioning” (Pre-
Positioned Equipment). GPRA Performance Goal 1.3, “Strategic Mobility,” comprises
Performance Measure 1.3.1, “Airlift Capacity;” Surge Sealift; and Pre-Positioned
Equipment. The overall goal for those performance measures is to “maintain the
capability to move military forces from the United States to any location in the world in
response to aggression, using a combination of airlift, sealift, and pre-positioned
equipment.” The FY 2000 goal for Performance Measure 1.3.2 was 8.7 million square
feet of capacity. The FY 2000 goal for Performance Measure 1.3.3 was seven Army
heavy brigade sets, three Marine Expeditionary Forces afloat, and one partial Marine
Expeditionary Force on land.

Objectives. The overall audit objective was to evaluate the strategic mobility goals of
GPRA, as shown in the draft DoD GPRA Performance Report (the Report) for
FY 2000. Specifically, for this report, we assessed the validity of the processes, data,
and factors used to establish the performance measures goals related to surge sealift and
pre-positioned equipment. We evaluated the methods used to accumulate and report the
data collected by DoD against those goals. We also reviewed the management control
program as it applied to the overall audit objective, which will be discussed in a
summary report.

Results. DoD reported 8.4 million square feet of capacity for the performance measure
on Surge Sealift. The goal of 8.7 million square feet was not met by 300,000 square
feet of capacity because the delivery of a large, medium-speed, roll-on/roll-off ship was
postponed until FY 2001. The Surge Sealift measure established performance goals for
the sealift capacity needed at “the outset of a crisis.” However, the usefulness of that
as a tool for assessing the ability of all sealift forces can be improved for the Report.
The Surge Sealift performance measure can be revised to provide more complete
information on the sealift forces’ ability to provide the transport capacity necessary to
military forces during the spectrum of contingencies (finding A).

DoD reported seven Army heavy brigade sets (six land-based and one afloat), three
Marine Expeditionary Forces afloat, and one partial Marine Expeditionary Force on
land for the performance measure on Pre-Positioned Equipment. The goal was met for
Performance Measure 1.3.3. The measure established performance goals for those
forces required very early in a conflict. However, the usefulness of the Pre-Positioned
Equipment measure as a tool for assessing the capability of all DoD pre-positioned
equipment was not clearly explained in the Report. Further, the presentation of the
performance data reported against the measure provided too vague a description of the
employment capability of the pre-positioned equipment sets. The Pre-Positioned
Equipment performance measure can be revised to provide more complete information
on the ability of DoD to quickly respond to crises worldwide by using pre-positioned
equipment (finding B).

Summary of Recommendations. We recommend that the Director, Program Analysis
and Evaluation, more clearly explain the Surge Sealift performance measure in future
GPRA publications in the context of supporting the entire spectrum of operations and
adopt a more informative presentation scheme for portraying the mix of cargo carrying
capacity DoD has available in ship inventory for meeting sealift requirements.

We also recommend that the Director, Program Analysis and Evaluation, more clearly
explain that the usefulness of the Pre-Positioned Equipment performance in future
GPRA publications in the context of 12 DoD pre-positioning programs and adopt a
more informative presentation scheme for portraying the fill rate of the pre-positioned
equipment sets and the serviceability of the equipment in the sets.

Management Comments. The Director, Program Analysis and Evaluation, agreed
that the full utility of sealift forces in responding to crises needed to be more fully
explained. The Director stated he would ensure future GPRA publications include an
adequate description of the performance measure, should it be retained by the ongoing
defense review as an executive-level management tool. The Director also agreed that
segregating sealift requirements into twenty-foot equivalent units for containerships and
square feet for other ship types was a better way to represent the full range of capacity
available for defense missions; however, he stated the current surge sealift fleet
consisted exclusively of roll-on/roll-off ships, barge carriers, and break-bulk ships.
Therefore, the Director stated, it was appropriate to use square footage as the capacity
measure unless the measure was broadened in the future.

The Director agreed the full utility of pre-positioned forces in responding to crises
needed to be more fully explained. The Director stated he would ensure that future
GPRA publications include an adequate description of the performance measure, should
it be retained by the ongoing defense review as an executive-level management tool.
The Director also stated that discussions of readiness problems and their likely effects



                                             ii
are classified. In lieu of adding such a discussion to the Report, the Director stated he
would add language to point readers to another information source for more detailed
information on the employment capability of pre-positioned sets. The Director agreed
to correctly represent the Marines Corps pre-positioned sets in future GPRA
publications. See the Finding section for a discussion of management comments and
the Management Comments section for the complete text of the comments.

Audit Response. The Director, Program Analysis and Evaluation, comments are
partially responsive. Some of the roll-on/roll-off ships and barge carriers contained in
the surge sealift fleet possess capacity that is quantified in twenty-foot equivalent units
(containers) and converted into square feet for inclusion in GPRA publications. We
request the Director, Program Analysis and Evaluation, provide additional comments
on segregating sealift requirements by ship type in future GPRA publications by
June 25, 2001.




                                             iii
Table of Contents

Executive Summary                                       i

Introduction
     Background                                         1
     Objectives                                         2

Findings
     A. Surge Sealift Performance Measure              3
     B. Pre-Positioned Equipment Performance Measure   6

Appendixes
     A. Audit Process
          Scope and Methodology                        11
          Prior Coverage                               12
     B. Strategic Sealift Programs                     13
     C. Pre-Positioning Programs                       15
     D. Report Distribution                            18

Management Comments
     Director, Program Analysis and Evaluation         21
Background
    This report is one in a series of reports resulting from our audits of the
    Government Performance and Results Act (GPRA) goals. This report discusses
    the FY 2000 DoD GPRA Performance Measure 1.3.2, “Surge Sealift,” and
    Performance Measure 1.3.3, “Forces Supported by Land- and Sea-Based Pre-
    Positioning” (Pre-Positioned Equipment). Performance Goal 1.3, “Strategic
    Mobility,” comprises Performance Measure 1.3.1, “Airlift Capacity”; Surge
    Sealift; and Pre-Positioned Equipment.

    The Government Performance and Results Act of 1993 (Public Law 103-62).
    GPRA was designed to improve Government-wide program effectiveness,
    Government accountability, and, ultimately, public confidence by requiring
    agencies to identify measurable annual performance goals, against which actual
    achievements can be compared. GPRA requires Federal agencies to prepare
    strategic plans, annual performance plans, and program performance reports
    covering the program activities set out in their budgets.

    Quadrennial Defense Review. The May 1997 Report of the Quadrennial
    Defense Review (QDR) describes the results of a definitive, overarching
    program evaluation undertaken by DoD. The QDR provides a blueprint for a
    balanced and affordable defense program, based on an examination of the
    Nation’s defense needs from 1997 to 2015; the potential threats the Nation
    might face; and the strategy, force structure, readiness, infrastructure, and
    modernization programs needed to cope with them. The May 1997 QDR is the
    DoD strategic plan. The strategic plan will remain in effect until revised by the
    next QDR, in 2001, as mandated by Section 402 of the National Defense
    Authorization Act for FY 2000 (Public Law 106-65). DoD has established two
    corporate level goals that form the basis for using GPRA as a management tool,
    and they serve as strategic goals for DoD.

    GPRA Goals and Measures. DoD prepared a draft DoD GPRA Performance
    Report (the Report) for FY 2000, dated November 27, 2000, that includes a
    combined performance plan for FY 2002 and performance report for FY 2000.
    The Office of the Director, Program Analysis and Evaluation, obtains data and
    prepares the Report.

    Annual performance goals establish a measurable path to incremental
    achievement of the corporate goals. Performance goals are supported and
    evaluated by quantifiable output, which is assessed using performance measures
    and indicators. Performance Goal 1.3 is one of three subordinate goals of
    Corporate Level Goal 1: “Shape the international security environment and
    respond to the full spectrum of crises by providing appropriately sized,
    positioned, and mobile forces.” This report discusses Performance
    Measures 1.3.2 and 1.3.3, which are two of the three measures used to assess
    Performance Goal 1.3: “Maintain the capability to move military forces from
    the United States to any location in the world in response to aggression, using a
    combination of airlift, sealift, and pre-positioned equipment.”



                                        1
     GPRA Surge Sealift Performance Measure Goal. The overall goal
     established by DoD for Performance Measure 1.3.2 was 10 million square feet
     of surge sealift capacity, which the Report states will not be reached until
     FY 2003. The overall goal was established by the DoD “1995 Mobility
     Requirements Study Bottom-Up Review Update.” The FY 2000 goal for surge
     sealift capacity was 8.7 million square feet. The goal for Performance
     Measure 1.3.2 was not met by 300,000 square feet of capacity, because the
     delivery of a large, medium-speed, roll-on/roll-off (LMSR) ship was postponed
     until FY 2001. The Report states that square footage serves as an aggregate
     measure of ship capacity. See Appendix B for a description of the types of
     ships that constitute strategic sealift.

     GPRA Pre-Positioned Equipment Performance Measure Goal. The existing
     measure established performance objectives only for those forces required very
     early in a conflict to halt an enemy’s advance. The overall FY 2001 goal for
     pre-positioned equipment is two Army heavy brigade sets afloat and six heavy
     brigade sets on land, three Marine Expeditionary Forces afloat, and one partial
     Marine Expeditionary Force on land. The FY 2000 goal was one Army heavy
     brigade set afloat and six heavy brigade sets on land, three Marine
     Expeditionary Forces afloat, and one partial Marine Expeditionary Force on
     land. The FY 2000 goal was met. See Appendix C for details on specific pre-
     positioning programs established within DoD.


Objectives
     The overall objective of the audit was to evaluate the strategic mobility goals of
     GPRA, as shown in the Report. Specifically, for this report, we assessed the
     validity of the processes, data, and factors used to establish the performance
     measure goals related to surge sealift and pre-positioned equipment. We
     evaluated the methods used to accumulate and report the data collected by DoD
     against those goals. We also reviewed the management control program as it
     applied to the overall audit objective, which will be discussed in a summary
     report. See Appendix A for a discussion of the audit scope and methodology
     and prior coverage related to the audit objectives.




                                          2
            A. Surge Sealift Performance Measure
            The Surge Sealift measure established performance goals for the sealift
            capacity needed at “the outset of a crisis.” However, the usefulness of
            that as a tool for assessing the ability of all sealift forces can be
            improved for the Report. The usefulness of the measure was not clear
            because DoD did not adequately describe surge sealift in the context of
            strategic sealift or select a unit of measurement that depicted existing
            sealift capacity in a clear and meaningful manner. The Surge Sealift
            performance measure can be revised to provide more complete
            information on the sealift forces’ ability to provide the transport capacity
            necessary to respond to the spectrum of contingencies.


Quadrennial Defense Review
     The QDR recognizes that strategic mobility forces must be able to respond
     across the entire spectrum of operations. The QDR examined “mobility
     requirements across a continuum of planning scenarios, from smaller-scale
     contingency operations to major theater wars and single-theater conflicts against
     notional regional great power adversaries.” The QDR evaluated the extent to
     which our mobility forces could meet intertheater lift needs in the decades
     ahead. In each case, DoD measured the ability of its long-range investment
     program for strategic mobility to support potential deployment requirements.
     The QDR reaffirms DoD baseline requirements for intertheater mobility, as
     outlined in the 1995 Mobility Requirement Study Bottom-Up Review Update,
     and establishes objectives for guiding DoD long-range planning for strategic
     mobility forces. The study established 10 million square feet and 4.3 million
     square feet as baseline requirements for surge and pre-positioning sealift
     capacity, respectively.


Strategic Sealift
     Strategic sealift, one of the elements of the strategic mobility triad, helps
     provide the capability to deploy and sustain military forces worldwide when
     necessary in support of national contingencies or emergencies. Sealift is used to
     deliver heavy combat units and their support equipment as well as vital
     sustainment for deployed forces. To meet those requirements, sealift forces are
     employed in three phases of strategic sea transportation: pre-positioning, surge,
     and sustainment.




                                          3
Usefulness of the Performance Measure
     DoD established the Surge Sealift measure for assessing the sealift forces’
     ability to provide the transport capacity necessary to respond to the spectrum of
     worldwide crises and to serve as a benchmark for the sealift portion of
     Performance Goal 1.3, Strategic Mobility. However, the usefulness of the
     Surge Sealift measure as a tool for assessing the ability of all sealift forces was
     not clearly explained in the Report. The measure established performance goals
     for the sealift capacity needed at “the outset of a crisis.” Although the Report
     states the measure does not set goals for the sealift forces used for pre-
     positioning purposes, it implies that the capacity available from the pre-
     positioning sealift forces is assessed under the Pre-Positioned Equipment
     performance measure. Further, the discussion of the measure does not
     explicitly state that the capacity needed to fulfill DoD sustainment requirements
     is not addressed by the Surge Sealift measure.


Presentation of Available Sealift Capacity
     The sealift capacity identified in the Report as available for supporting U.S.
     forces during national contingencies could be presented in a more clear and
     meaningful manner. DoD identified square footage as the aggregate measure of
     sealift capacity, which it calculated by summing the square footage of the deck
     plans for all ships currently the DoD inventory. For example, the Report stated
     that for containerships and breakbulk ships the standard measures (number of
     containers or volumetric capacity) were converted to square footage. However,
     square footage is not in all cases the best unit of measurement for determining
     and depicting a ship’s available capacity. The most appropriate unit of
     measurement for determining and depicting a ship’s capacity is dependent on the
     type of cargo that the ship is designed to transport. DoD should develop a more
     informative presentation scheme to depict the capacity available to fulfill its
     various types of cargo requirements.


Conclusion
     The Surge Sealift metric is objective, quantifiable, and measurable. However, it
     measures only the sealift forces’ ability to provide capacity required at the outset
     of a crisis and not the capacity required to deploy and sustain U.S. forces in
     response to the spectrum of military operations. Further, the use of square
     footage as the aggregate measure for depicting sealift capacity does not provide
     a clear picture of existing sealift capacity.




                                          4
Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. We revised draft Recommendation A.1. because
    there was insufficient time for managament to incorporate the recommended
    changes into the DoD FY 2000 GPRA Performance Report before its
    publication.

    A. We recommend that the Director, Program Analysis and Evaluation:

           1. More clearly explain the “Surge Sealift” performance measure in
    future DoD Government Performance and Results Act Performance
    Reports in the context of providing the transport capacity necessary to
    support the entire spectrum of operations.

    Management Comments. The Director, Program Analysis and Evaluation,
    concurred, stating that the full utility of sealift forces to respond to crises of
    varied size and scope needed to be more fully explained. The Director stated he
    would review the Report’s text and the discussion of pre-positioned forces in the
    Conventional Forces chapter of the Annual Report to the President and
    Congress and ensure that they provided an adequate description of the measure.
    The Director also stated he would incorporate changes in future GPRA
    publications, provided the ongoing defense review recommended retaining the
    performance measure as an executive-level management tool.

            2. Adopt a more informative presentation scheme for portraying the
    mix of cargo carrying capacity DoD has available in inventory for meeting
    sealift requirements.

    Management Comments. The Director, Program Analysis and Evaluation,
    partially concurred. The Director agreed that segregating the sealift
    requirements into twenty-foot equivalent units for containerships and square feet
    for other ship types was a better way to represent the full range of capacity
    available for defense missions; however, he stated the current surge sealift fleet
    consisted exclusively of roll-on/roll-off ships, barge carriers, and break-bulk
    ships. Therefore, the Director stated it, was appropriate to use square footage
    as the capacity measure unless the measure was broadened in the future.

    Audit Response. The Director, Program Analysis and Evaluation, comments
    are partially responsive. Some of the roll-on/roll-off ships and barge carriers
    contained in the surge sealift fleet possess capacity that was quantified in
    twenty-foot equivalent units (containers) and converted into square feet for
    inclusion in the GPRA publications. DoD did not use that approach for
    evaluating and representing sealift capacity in the recently completed Mobility
    Requirements Study 2005. We request the Director provide additional
    comments on portraying the mix of the surge sealift fleet’s cargo carrying
    capacity in future GPRA publications.




                                        5
           B. Pre-Positioned Equipment
              Performance Measure
           The Pre-Positioned Equipment measure established performance goals
           for forces required very early in a conflict. However, the usefulness of
           the Pre-Positioned Equipment measure as a tool for assessing the
           capability of all DoD pre-positioned equipment was not clearly explained
           in the Report. Further, the presentation of the performance data
           reported against the measure provided too vague a description of the
           employment capability of the pre-positioned equipment sets. As a result,
           the Pre-Positioned Equipment performance measure provided incomplete
           information on the DoD’s ability to quickly respond to crises worldwide
           by using pre-positioned equipment.


Quadrennial Defense Review
    The QDR cites a need for six Army land-based heavy brigade sets of pre-
    positioned equipment (three in Europe, one in Korea, and two in Southwest
    Asia) plus a Marine brigade set in Norway. In addition, the QDR cites a need
    for significant stocks of pre-positioned equipment afloat, including three Marine
    Corps squadrons and one heavy brigade set of Army equipment. The QDR also
    mentions the need for selected munitions for the Air Force, but that requirement
    was not considered in the Report as a long-term objective for pre-positioned
    equipment.


Pre-Positioned Equipment
    Pre-positioned military equipment and supplies are used to help provide the
    Nation with the ability to quickly respond to crises worldwide. The pre-
    positioning of military equipment and supplies near regions of potential conflict
    reduces the time required to respond to crises. As the United States decreased
    the number of troops stationed overseas, pre-positioning military equipment and
    supplies became more important to maintaining our response capability.

    With materiel stored afloat or on land at overseas locations, only troops and a
    relatively smaller amount of equipment need to be airlifted to a theater early in a
    crisis. As a result, DoD can field heavily equipped, combat-ready forces in
    days, rather than the weeks it would take to airlift or sealift all necessary
    equipment and supplies from the United States.

    DoD Pre-Positioning Programs. The Services and the Defense Logistics
    Agency established 12 programs that pre-position equipment and supplies on
    land and afloat near regions of potential conflict. Land-based pre-positioning
    programs are maintained in Europe, the Pacific region, and Southwest Asia.
    Those programs are complemented by sea-based pre-positioning, which provides
    the flexibility to move equipment within and between theaters of operation. The

                                         6
      following figure shows the 12 pre-positioning programs established by DoD.
      The three highlighted programs are included in the goal for the Pre-Positioned
      Equipment measure.

                                      DoD Pre-Positioning Programs




     Army                  Navy              Air Force       Marines               DLA


    Brigade                Fleet             Bare Base      MPF Ship               Fuel
     Sets                 Hospitals            Sets         Squadrons             Tankers


   Operational             MCDS               Medical       NALMEB
    Projects              Ordnance            Program         Set


   Sustainment                               Munitions
     Stocks                                  Program


                                              Vehicle
                                              Program



 DLA             Defense Logistics Agency                               Pre-positioning programs
 MPF             Maritime Pre-Positioning Force                         included in the goal
 MCDS            Modular Cargo Delivery System                          Pre-positioning programs
 NALMEB          Norway Air-Landed Marine                               not included in the goal
                 Expeditionary Brigade


Usefulness of the Performance Measure
      DoD established the Pre-Positioned Equipment measure to assess its ability to
      quickly respond to crises worldwide because of the pre-positioning of military
      equipment and supplies near regions of potential conflict and to serve as a
      benchmark for the Pre-Positioned Equipment portion of Performance Goal 1.3,
      “Strategic Mobility.” However, the usefulness of the Pre-Positioned Equipment
      measure as a tool for assessing the capability of all pre-positioned equipment
      was not clearly explained in the Report. The Report does not inform the reader
      that the measure established performance objectives for only 3 of the 12 DoD
      pre-positioning programs. Those three programs cover the equipment needed
      by forces very early in a conflict and consist of only the unit equipment and
      supplies pre-positioned by the Army and the Marine Corps. The Report notes
      that additional programs, not covered by the performance measure, provide
      base, fuel, and medical support. However, a large part of the Report discussion

                                                  7
    of FY 2000 performance results is devoted to the readiness of Air Force Bare
    Base Sets, which are not included in the performance measure. The Report
    does not adequately describe how those and other conclusions made in the
    Report about the capability of the pre-positioned equipment not covered by the
    measure were derived from the data collected.


Presentation of the Performance Data
    The presentation of the performance data reported against the Pre-Positioned
    Equipment measure’s goals provided too vague a description of the employment
    capability of the pre-positioned equipment sets. The performance data reported
    against the measure show the number of equipment sets pre-positioned in whole
    numbers and make only vague references to the fill rate of the sets and the
    serviceability of the equipment in the sets for some of the reported pre-
    positioned equipment. For example, the Report states that “during FY 2000 the
    three brigade sets of Army material prepositioned in Europe were not stocked or
    maintained to the same standards as Army material prepositioned in Southwest
    Asia, Korea, or afloat.” That reference provides a too ambiguous and
    incomplete picture of the employment capability of the equipment sets. If time
    is lost obtaining, repairing, or replacing damaged or depleted equipment before
    deployment, mission accomplishment could be put at risk. A more informative
    presentation scheme is needed. Table 1 provides an example of a way to more
    clearly depict the readiness status of the equipment for the brigade sets reported
    to be pre-positioned by the Army by showing the percentages of equipment on
    hand and the serviceability of that equipment. Table 1 shows that two of the
    seven sets contained less than 79 percent of their equipment. Further, Table 1
    shows that one of the seven brigade sets had equipment on hand that was
    between 60 percent to 89 percent serviceable, while the equipment on hand for
    two others was less than 59 percent serviceable.

            Table 1. Status of Army Pre-Positioned Heavy Brigade Sets
                             (as of the end of FY 2000)
                                         Percent             Percent
                                         Fill Rate        Serviceability
                 Afloat                   80-89              90-100
                 Europe 1                  >79                >59
                 Europe 2                 80-89               60-89
                 Europe 3                  >79                >59
                 Korea                    90-100             90-100
                 Kuwait                   90-100             90-100
                 Qatar                    80-89              90-100




                                        8
Marine Corps Unit Designators
    Due to a FY 1999 change within the Office of the Commandant of the Marine
    Corps, modifications were made to the terminology used to describe Marine
    Expeditionary Forces-Forward (deployed), which DoD shortened to Marine
    Expeditionary Forces in the Report. The forward-deployed forces are now
    referred to as Marine Expeditionary Brigades. As a result, the Report should be
    modified as shown in Table 2.


              Table 2. Number of Marine Expeditionary Brigades (MEBs)
                             (as of the end of FY 2000)

                                      FY 2000 Goal            FY 2001 Goal
     Land-based                              1*                     1*
     Afloat                                  3                      3
     *Material is pre-positioned in MEB-sized units.


Conclusion
    The Pre-Positioned Equipment metric is objective, quantifiable, and measurable.
    However, it measures only 3 of the 12 DoD pre-positioning programs. Further,
    the presentation of the performance data reported against the measure provided
    too vague a description of the employment capability of the pre-positioned
    equipment sets. Therefore, the Pre-Positioned Equipment performance measure
    provided incomplete information on the Nation’s ability to quickly respond to
    crises worldwide by using pre-positioned equipment.


Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. We revised draft Recommendation B.1. because
    there was insufficient time for management to incorporate the recommended
    changes into the DoD FY 2000 GPRA Performance Report before its
    publication.

    B. We recommend that the Director, Program Analysis and Evaluation:

           1. More clearly explain the usefulness of the “Forces Supported by
    Land-and Sea-Based Pre-Positioning” performance measure in future DoD
    Government Performance and Results Act Performance Reports in the
    context of 12 DoD pre-positioning programs.



                                              9
Management Comments. The Director, Program Analysis and Evaluation,
concurred, stating that the full utility of pre-positioned forces to respond to
crises of varied size and scope needed to be more fully explained. The Director
stated he would review the Report’s text and the discussion of pre-positioned
forces in the Conventional Forces chapter of the Annual Report to the President
and Congress and ensure that they provided an adequate description of the
measure. The Director also stated he would incorporate changes in future
GPRA publications, provided the ongoing defense review recommended
retaining the performance measure as an executive-level management tool.

       2. Adopt a more informative presentation scheme, similar to
Table 1, for portraying the fill rate of the sets and the serviceability of the
equipment in the sets of the reported pre-positioned equipment.

Management Comments. The Director, Program Analysis and Evaluation,
nonconcurred, stating that discussions of readiness problems and their likely
effects are classified. The Director stated DoD already provided detailed
information on the employment capability of the pre-positioned sets as a part of
its classified Quarterly Readiness Report to Congress. To overcome the
vagueness of the unclassified summary contained in the Report, the Director
stated he would add language to future GPRA publications to clearly point
readers to the Quarterly Readiness Report to Congress for more detailed
information on the employment capability of the pre-positioned sets.

Audit Response. The proposed alternative actions meet the intent of the
recommendation. Therefore, no additional comments are needed.

      3. Change reference from Marine Expeditionary Forces to Marine
Expeditionary Brigades.

Management Comments. The Director, Program Analysis and Evaluation,
concurred and stated he will incorporate the suggested change into future GPRA
publications, provided the ongoing defense review determines the performance
measure should be retained as an executive-level management tool.




                                   10
Appendix A. Audit Process

Scope and Methodology
    We validated the process for accumulating and reporting the actual data
    collected by DoD against the FY 2000 goals for Performance Measures 1.3.2
    and 1.3.3. We performed the audit at the Department of Transportation
    Maritime Administration; the Military Departments; the Office of the Director,
    Program Analysis and Evaluation; the U.S. Transportation Command (including
    the Military Sealift Command and the Military Traffic Management Command-
    Transportation Engineering Agency); and other offices responsible for sealift
    capacity and pre-positioned equipment. We reviewed the Report; the GPRA of
    1993; Joint Pub 4-01.2, “Joint Tactics, Techniques, and Procedures for Sealift
    Support to Joint Operations,” October 9, 1996; the “1995 DoD Mobility
    Requirements Study Bottom-Up Review Update”; the May 1997 Report of the
    QDR; the Voluntary Intermodal Sealift Agreement program; and other related
    DoD policies and directives. We also obtained documentation, drawings, and
    measurements to verify ship capacity, equipment on hand, and equipment
    serviceability reported for FY 2000.

    Use of Computer-Processed Data. We did not evaluate the general and
    application controls of the Integrated Computerized Deployment System that
    processes ship capacity data, although we relied on data produced by that system
    to conduct the audit. We did not evaluate the controls because we obtained
    other documentation, drawings, and measurements that supported the
    computer-processed data. Not evaluating the controls did not affect the results
    of the audit.

    Audit Type, Dates, and Standards. We performed this program audit from
    February 2001 through March 2001 in accordance with auditing standards
    issued by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD. Accordingly, we included tests of management
    controls considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD and other Government agencies. Further details are
    available on request.

    Management Control Program Review. Our review of management controls
    over GPRA performance measure goals will be discussed in a summary report
    upon completion of the current reviews.




                                       11
Prior Coverage
    The General Accounting Office has conducted multiple reviews related to
    GPRA. This report is one in a series on the Inspector General, DoD, current
    reviews of GPRA performance measures and indicators. Unrestricted General
    Accounting Office reports can be accessed over the Internet at
    http://www.gao.gov. Unrestricted Inspector General, DoD, reports can be
    accessed at http://www.dodig.osd.mil/audit/reports.

Inspector General, DoD
    Inspector General, DoD, Report No. D-2001-080, “Government Performance
    and Results Act Goals: Disposal of Excess Real Property,” March 15, 2001

    Inspector General, DoD, Report No. D-2001-045, “Government Performance
    and Results Act Goals: Tank Miles,” February 7, 2001

    Inspector General, DoD, Report No. D-2001-033, “Government Performance
    and Results Act Goals: Unfunded Depot Maintenance Requirements,”
    January 12, 2001

    Inspector General, DoD, Report No. D-2001-021, “Government Performance
    and Results Act Reporting on Defense Working Capital Funds Net Operating
    Results,” January 10, 2001

    Inspector General, DoD, Report No. D-2000-136, “Reporting of Performance
    Measures in the DoD Agency-Wide Financial Statements,” May 31, 2000




                                     12
Appendix B. Strategic Sealift Programs
   Sealift forces are employed in the three phases of strategic sealift: pre-
   positioning, surge, and sustainment.

   Pre-Positioning. The Afloat Pre-Positioning Force is divided into three
   separate elements: the Combat Pre-Positioning Force; the Logistics Pre-
   Positioning Force; and the Maritime Pre-Positioning Force.

                                                    •    The Combat Pre-Positioning Force
                                                         consists of 14 ships. The force
                                                         includes one auxiliary crane ship,
                                                         two combination roll-on/roll-off
                                                         container ships, one float-on/float-
                                                         off ship, six LMSR ships, one
                                                         lift-on/lift-off ship, and three
                                                         lighter aboard ships. The ships,
                                                         combined, provide 2.9 million
                                                         square feet of military useful
   Large, Medium-Speed, Roll-On/Roll-Off Ship            capacity.
   •   The Logistics Pre-Positioning Force consists of nine ships. The force
       includes two aviation logistics support ships (in 5-day reduced operating
       status), three combination roll-on/roll-off container ships, one modular cargo
       delivery system ship, and three tankers. The ships, combined, provide
       1 million square feet of military useful capacity and 650,000 barrels of fuel.

                                                •       The Maritime Pre-Positioning
                                                        Force consists of 14 ships in
                                                        3 squadrons. The ships are all
                                                        specifically constructed or
                                                        converted roll-on/roll-off ships,
                                                        and, combined, provide
                                                        2.1 million square feet of military
                                                        useful capacity.

   Converted Roll-On/Roll-Off Ship

   Surge. The Surge Fleet is divided into the organic fleet, operated by the
   Military Sealift Command, and the Ready Reserve Force.

   •   The Military Sealift Command operates two types of sealift ships for DoD:
       fast sealift ships and LMSR ships. Eight fast sealift ships are maintained in
       a 4-day reduced operating status. Five LMSR ships were also maintained in
       FY 2000. The total military useful capacity of those 13 ships was
       2.5 million square feet.




                                        13
                                               •   The Ready Reserve Force consisted
                                                   of 75 ships as of the end of
                                                   FY 2000. The force consists of
                                                   9 auxiliary crane ships,
                                                   28 breakbulk ships, 4 lighter
                                                   aboard ships, 31 roll-on/roll-off
                                                   ships, and 3 sea barges. The total
                                                   military useful capacity of the
                                                   Ready Reserve Force was
Breakbulk Ship                                     5.9 million square feet.

Sustainment. The sustainment phase of strategic sealift refers to shipping provided by
the U.S. Merchant Fleet. That fleet consists of 106 ships: 4 breakbulk ships, 5 bulk
carriers, 79 containerships, 1 integrated tug barge, 4 lighter aboard ships,
4 roll-on/roll-off ships, and 9 vehicles carriers. The 106 ships, combined, provide an
estimated 18.8 million square feet of military useful capacity. In addition, commercial
ships provided by the Voluntary Intermodal Sealift Agreement program are available to
meet surge sealift requirements, should additional capacity be needed.




                                          14
Appendix C. Pre-Positioning Programs
       The following are the pre-positioning programs containing equipment and
       supplies strategically placed at overseas locations. Equipment and supplies are
       pre-positioned on land and afloat by the Services and the Defense Logistics
       Agency.


Army
       Brigade Sets. As of 2000, the Army had one heavy brigade set afloat pre-
       positioned on six LMSR ships and planned to pre-position a second heavy
       brigade set afloat during FY 2001. The Army also had six heavy brigade sets
       pre-positioned on land: three in Europe, one in Korea, one in Kuwait, and one
       in Qatar. The sets consist of major unit equipment (such as artillery pieces,
       Bradley fighting vehicles, tanks, and other tracked and wheeled vehicles) and
       sustainment supplies to support about 3,000 to 5,000 soldiers.

       Operational Projects. The Army pre-positions stocks afloat and on land for
       special missions. The stocks include a range of support equipment and supplies,
       from bridges and fuel pipelines to chemical gear and clothing. Of
       15 Operational Projects, 10 had all or a portion of their stocks pre-positioned on
       ships or at overseas locations. Some of the Operational Projects are carried on
       ships in the Combat Pre-Positioning Force, and stocks for additional projects are
       strategically placed on land in Europe, Japan, Korea, and Southwest Asia.

       Sustainment Stocks. The Army’s Sustainment Stocks Program consists of
       major end-items to be used as replacements (such as radios, tanks and other
       tracked vehicles, and other weapons) and war reserve secondary items (such as
       clothing and textiles, food, medical supplies, and repair parts). Sustainment
       stocks are placed on ships in the Combat Pre-Positioning Force and additional
       stocks are strategically placed on land in Japan, Korea, and Qatar.


Navy
       Fleet Hospitals. The Navy’s Fleet Hospital Program consists of seven land-
       based fleet hospitals. Each is a 500-bed modular hospital that includes rapidly
       erectable medical and surgical facilities. The hospitals are pre-positioned in
       Guam, Japan, Korea, and Norway. The Navy transferred its afloat fleet
       hospital to the first Maritime Pre-Positioning Force-Enhanced Ship, which
       joined squadron one of the Maritime Pre-Positioning Force in FY 2000. Two
       additional land-based fleet hospitals will be transferred to the Maritime Pre-
       Positioning Force by the end of FY 2002.

       Modular Cargo Delivery System. The Navy pre-positions a munitions vessel
       afloat, outfitted with a modular cargo delivery system. The vessel carries



                                           15
    munitions of more than 2 million pounds of net explosive weight and other Navy
    ordnance and equipment. It also operates as a shuttle replenishment ship for
    naval battle groups.


Air Force
    Bare Base Sets. Air Force Bare Base Sets provide airfield, billeting, and
    industrial capability to support more than 68,000 personnel and 822 aircraft at
    15 austere locations. Complete bases are built from the ground up using the
    equipment sets. Bare Base Sets include Housekeeping Sets for billeting,
    hygiene, and messing; Flightline Sets for aircraft hangars, barriers, and runway
    lighting; and Industrial Operations Sets for back shops, warehouses, and other
    support facilities. Bare Base Sets are pre-positioned in Europe, Korea, and
    Southwest Asia.

    Medical Program. The Air Force pre-positions medical equipment and
    supplies as Air Transportable Hospitals to provide medical services for deployed
    forces through the entire spectrum of contingencies (from humanitarian
    operations to major theater war). There were Air Transportable Hospitals pre-
    positioned in Europe, Southeast Asia, and Southwest Asia at the end of
    FY 1999, but the Air Force is in an ongoing transition phase. Air Transportable
    Hospitals are being converted to Expeditionary Medical Support/Air Force
    Theater Hospitals, which begin with the basic force package and progress in
    increments as required to a fully developed stage where significant specialty
    care capability is available.

    Munitions Program. The Air Force has significant stocks of munitions pre-
    positioned afloat and on land. Three ships in the Logistics Pre-Positioning
    Force carry munitions. The ships are a combination of roll-on/roll-off and
    container ships. The land-based munitions are pre-positioned in Korea and
    Southwest Asia.

    Vehicle Program. The Vehicle Program is critical to the Air Force’s ability to
    generate combat sorties and sustain flight operations. The vehicles include
    general-purpose vehicles, such as buses and trucks, and special-purpose
    vehicles, such as firefighting and materiel-handling equipment. The Air Force
    has pre-positioned vehicles in the European, Pacific, and Persian Gulf regions.


Marines
    Maritime Pre-Positioning Force. The Maritime Pre-Positioning Force consists
    of 14 ships organized into 3 squadrons. Each squadron is loaded with
    equipment and sustainment supplies to maintain more than 17,000 Marine Air-
    Ground Task Force personnel for up to 30 days. The ships carry much of what
    the Marines need for initial operations, such as ammunition, amphibious assault
    vehicles, armored and tracked vehicles, artillery, fuel, landing craft, rations,
    and repair parts, as well as fixed- and rotary-wing air combat equipment.


                                       16
    Norway Air-Landed Marine Expeditionary Brigade Set. This Marine
    brigade set is pre-positioned on land and consists of equipment and sustainment
    supplies to support more than 13,000 Marine Air-Ground Task Force personnel
    for up to 30 days. The stocks are kept in underground, climate-controlled
    warehouses in Norway. Specifically included are mission-essential items that
    are heavy weight or high volume, suited for extended storage, and not available
    through Wartime Host-Nation Support.


Defense Logistics Agency
    Tankers. The Defense Logistics Agency pre-positions three tankers afloat.
    Two tankers are equipped with off-shore petroleum discharge systems, and the
    third tanker is capable of underway replenishment. The three tankers can carry
    more than 650,000 barrels of fuel to support deployed forces afloat and ashore.




                                       17
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
  Director, Program Analysis and Evaluation
Under Secretary of Defense for Personnel and Readiness

Joint Staff
Directorate for Operations (J-3)
Directorate for Logistics (J-4)

Department of the Army
Deputy Chief of Staff for Operations and Plans
Deputy Chief of Staff for Logistics
Auditor General, Department of the Army

Department of the Navy
Deputy Chief of Naval Operations (Plans, Policy, and Operations)
Deputy Chief of Naval Operations (Logistics)
Naval Inspector General
Auditor General, Department of the Navy

Marine Corps
Commandant of the Marine Corps
Deputy Chief of Staff for Plans, Policies and Operations
Inspector General, Marine Corps

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Deputy Chief of Staff Air and Space Operations
Deputy Chief of Staff Installations and Logistics
Auditor General, Department of the Air Force




                                          18
Unified Commands
Commander in Chief, U.S. European Command
Commander in Chief, U.S. Pacific Command
Commander in Chief, U.S. Southern Command
Commander in Chief, U.S. Central Command
Commander in Chief, U.S. Transportation Command
  Commander, Military Traffic Management Command
  Commander, Military Sealift Command

Other Defense Organizations
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget
Director, Department of Transportation Maritime Administration

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         19
Director, Program Analysis and Evaluation
  Comments
                                            Final Report
                                             Reference




                                            Revised
                                            Recommen-
                                            dation A.1.
                                            and Recom-
                                            mendation
                                            B.1.




                   21
22
Audit Team Members
   The Readiness and Logistics Support Directorate, Office of the Assistant
   Inspector General for Auditing, DoD, prepared this report. Personnel of the
   Office of the Inspector General, DoD, who contributed to the report are listed
   below.

     Shelton R. Young
     Robert M. Murrell
     Patrick J. Nix
     Diane M. Alvin
     Melinda M. Oleksa
